TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Modernization Vision and Strategy
                   Program Is Achieving Desired Results, but
                                Risks Remain



                                        October 31, 2008

                              Reference Number: 2009-20-008




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           October 31, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Modernization Vision and Strategy Program
                             Is Achieving Desired Results, but Risks Remain (Audit # 200820003)

 This report presents the results of our review to determine whether the Internal Revenue
 Service (IRS) Modernization Vision and Strategy (MV&S) Program is achieving the desired
 results. This review was included in our Fiscal Year 2008 Annual Audit Plan coverage of IRS
 Business Systems Modernization efforts.

 Impact on the Taxpayer
 Since the Business Systems Modernization program was initiated in Fiscal Year 1999,
 substantial changes in the information technology and budget environments have forced the IRS
 to shift its thinking and original assumptions. The MV&S Program was developed to implement
 a fundamentally different approach to the IRS modernization effort and to provide guidance in
 the development of an integrated portfolio of information technology investments. The MV&S
 Program has improved the information technology investment decision processes, resulting in
 information technology projects that 1) better support the IRS goals of improving customer
 service and enforcement, and 2) make better use of technology funds. However, process
 improvements need to be implemented to ensure the continued improvement of future
 investment proposal cost estimates and standardized reporting of investment decisions’
 performance measures.

 Synopsis
 Overall, the decision-making processes used in the MV&S Program provide IRS executives with
 effective tools and information with which to make informed information technology decisions.
 Developed in October 2006, the MV&S Plan is an annually updated 5-year plan for the
                  The Modernization Vision and Strategy Program Is Achieving
                              Desired Results, but Risks Remain



governance and planning processes for IRS information technology decisions. This approach
leverages the IRS strategic plan and associated business plans to drive information technology
decisions, address the priorities around modernizing front-line tax administration, and enable
technical capabilities provided by the information technology infrastructure. The IRS also
created several guiding principles for this new vision and strategy. The MV&S Program will
guide the investment priorities of the Business Systems Modernization program for Fiscal
Years 2007 through 2011.
Our review of the MV&S Program determined that, overall, processes and procedures have been
effectively implemented. For example, the MV&S Plan is updated annually; strategic planning
is effective; collaborative alliances have been established; and focused, more frequent delivery of
information technology project releases is emphasized.
In addition, the IRS is using an approved estimation model for determining total cost of
ownership. We determined that the cost estimates for a sample of 4 of 23 projects in the
approved investment portfolio appear to be reasonable based on 1) the documentation provided,
2) the validation of the estimates by employees with expertise in the area, and 3) reviews by the
team working on the proposed investments. However, IRS internal estimation guidance does not
require comparison of actual investment costs to the original estimates. Therefore, the reliability
of estimated total costs of ownership might be at risk because the estimates for prior projects
were not validated by comparing the estimates to the actual costs.
MV&S Program performance measures are being collected, but there is no standardized
procedure for compiling and reporting these measures. Through review of documentation and
discussions with personnel, we could not determine whether performance measurement and
reporting were being thoroughly accomplished as required. The lack of MV&S Program
performance measures and reporting compliance could result in inefficient accomplishment of
strategic information technology acquisitions, objectives, and expectations.

Recommendations
The Chief Information Officer should 1) ensure the reliability of the cost estimation process by
implementing procedures to compare actual project operations and maintenance costs to initial
estimates and revising the estimation process, if necessary, and 2) include guidelines for
performance measurement and reporting in the updated MV&S Plan.

Response
IRS management agreed with all of our recommendations. Corrective actions planned include
1) implementing procedures to compare actual project operations and maintenance costs to initial
estimates and revising the estimation process when necessary, and 2) updating the MV&S Plan
to reference performance measures and reporting. This update will be included in the Calendar
                                                                                                   2
                 The Modernization Vision and Strategy Program Is Achieving
                             Desired Results, but Risks Remain



Year 2009 annual publication. Management’s complete response to the draft report is included
as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Security and Information Technology
Services), at (202) 622-8510.




                                                                                               3
                        The Modernization Vision and Strategy Program Is Achieving
                                    Desired Results, but Risks Remain




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Modernization Vision and Strategy Program Is an Effective Process
          for Making Information Technology Investment Decisions.........................Page 3
          The Process for Developing Total Cost Estimates Can Be Improved ..........Page 6
                    Recommendation 1:..........................................................Page 7

          Modernization Vision and Strategy Program Performance Measurement
          Standards Need Further Development ..........................................................Page 7
                    Recommendation 2:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Glossary of Terms................................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 16
       The Modernization Vision and Strategy Program Is Achieving
                   Desired Results, but Risks Remain




                     Abbreviations

IRS            Internal Revenue Service
MITS           Modernization and Information Technology Services
MV&S           Modernization Vision and Strategy
                       The Modernization Vision and Strategy Program Is Achieving
                                   Desired Results, but Risks Remain




                                               Background

Since the Business Systems Modernization program was initiated in Fiscal Year 1999,
substantial changes in the information technology and budget environments have forced the
Internal Revenue Service (IRS) to shift its thinking and original assumptions. In particular, the
original goal to completely replace the existing IRS information technology environment within
10 years - 15 years has been deemed unrealistic due to resource limitations. The Modernization
Vision and Strategy (MV&S) Program was developed to implement a fundamentally different
approach to the IRS modernization effort and to provide guidance in the development of an
integrated portfolio of information technology investments. Developed in October 2006, the
MV&S Plan is an annually updated 5-year plan for the governance and planning process of IRS
information technology decisions. This approach leverages the IRS strategic plan and associated
business plans to drive information technology decisions, address the priorities around
modernizing front-line tax administration, and enable technical capabilities provided by the
information technology infrastructure. The MV&S Program will guide the investment priorities
of the Business Systems Modernization program for Fiscal Years 2007 through 2011. It includes
the following guiding principles:
      •    Joint business and information technology leadership and involvement throughout the
           process.
      •    Unified approach to setting strategic priorities and selecting major and non-major
           projects (investments)1 as an integrated portfolio.
      •    Smaller, incremental releases delivered more frequently.
      •    Existing systems (or components of existing systems) leveraged where appropriate.
      •    A portfolio view of investments–not simply a collection of individual projects.
      •    Application of end-to-end costing models to ensure a full view of all costs associated
           with each project.
The Portfolio Planning, Estimation, and Delivery Services Office within the Modernization and
Information Technology Services (MITS) organization leads and facilitates the MV&S Program.
This Program consists of reviewing, prioritizing, and preparing proposed information technology
projects for funding approval through the MITS organization Enterprise Governance Committee.
Three offices facilitate the MV&S Program:



1
    See Appendix IV for a glossary of terms.
                                                                                                Page 1
                  The Modernization Vision and Strategy Program Is Achieving
                              Desired Results, but Risks Remain



   •   The MV&S Program Office enables the prioritization and selection of future
       information technology investments. This is accomplished by proactively engaging
       stakeholders to develop investment strategies aligned with IRS enterprise-wide strategic
       plans. This Office coordinates and gathers information required in making informed
       investment decisions and presents results to senior executives.
   •   The Solution Concept Office develops and employs processes and proactively engages
       and collaborates with stakeholders to deliver investment ideas when new projects or new
       releases are initially proposed for the investment portfolio.
   •   The Estimation Program Office develops and uses processes and tools to deliver the
       following: 1) estimates of scope, cost, schedule, staffing, and quality; 2) MV&S Program
       pre-select phase estimates of candidate investments; 3) independent estimates for
       selected, high-priority projects; and 4) human capital profiles and the numbers and types
       of skill sets required to deliver selected major and non-major projects.
This review was performed at the MITS organization office in New Carrollton, Maryland, during
the period February through August 2008. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 2
                  The Modernization Vision and Strategy Program Is Achieving
                              Desired Results, but Risks Remain




                                Results of Review

The Modernization Vision and Strategy Program Is an Effective
Process for Making Information Technology Investment Decisions
Overall, the decision-making processes used in the MV&S Program provide IRS executives with
effective tools and information with which to make informed information technology decisions.
For example:
   •   The IRS annually updates the MV&S Plan.
   •   The MITS organization has established an effective approach for strategic planning.
   •   The MITS organization has established collaborative alliances internally and with other
       IRS business organizations.
   •   The IRS emphasizes focused, more frequent delivery of information technology project
       releases.

The IRS annually updates the MV&S Plan
The MV&S Program Office has a detailed project plan outlining efforts from MV&S Plan
preparation to communicating information affecting the Program. The first MV&S Plan was
prepared in October 2006 and was updated in October 2007. Annual updates to the Plan will be
ongoing throughout the MV&S Program. The IRS advised us that the Plan is updated to reflect
changes that affect the business organizations. In addition, the annual update includes changes in
strategic objectives and incorporates new requirements. For example, our review of the 2006
and 2007 Plans determined that the 2007 Plan was revised to reflect updated lists of potential and
future projects and to include information technology as a common service.

The MITS organization has established an effective approach for strategic
planning
The IRS begins the strategic planning process by having the business organizations define their goals
and initiatives to meet their business objectives, which then aids in the accomplishment of IRS
strategic goals. We confirmed that the Portfolio Planning, Estimation, and Delivery Services Office
conducted portfolio investment planning efforts. In addition, the MITS organization completed
several portfolio planning efforts for Fiscal Years 2007 through 2011. The Strategy processes involve
a series of activities aimed at preparing, executing, and communicating the Strategy.



                                                                                           Page 3
                  The Modernization Vision and Strategy Program Is Achieving
                              Desired Results, but Risks Remain



For each business area (e.g., the Submission Processing, Managing Taxpayer Accounts,
Customer Service, Chief Counsel, and Internal Management organizations), the MV&S Plan
defines the goals, benefits, opportunities, and expected business outcomes related to technology
that will yield the greatest benefits to taxpayers and the IRS. The Plan identifies the specific
projects, systems, and investments that will be necessary to achieve the business outcome. The
business areas collaborate to develop a joint strategy for information technology investments.
After strategic plans are reviewed, investment proposals are identified, evaluated, and prioritized
for each business area. The investment proposals are then prioritized based on the IRS’ strategic
needs. We reviewed the most recent enterprise portfolio prioritization document available and
found that all internal business areas included in the MV&S Plan prioritized and presented their
specific lists of projects.
Mapping of investment proposals to IRS and other strategic goals is being accomplished.
Information technology vision sessions are conducted within the business areas to identify scope,
goals, opportunities, recommendations, and strategic views for each office. Each investment
proposal that goes through the MV&S Program is given an investment review that shows 1) the
business proposal’s alignment with business area goals, 2) initiatives in the President’s
Management Agenda, and 3) Department of the Treasury and IRS strategic goals.

The MITS organization has established collaborative alliances internally and with
other IRS business organizations
Collaborative alliances were formed between organizations for the MV&S Program. The
Portfolio Planning, Estimation, and Delivery Services Office staff have developed relationships
internally and with other business organizations to engage participants in the various activities in
the MV&S Program. Additionally, the staff work closely with the Chief Financial Office and the
Application Development Budget, Capital Planning and Investment Control, and Financial
Management Services organizations to determine how to improve departmental processes. The
Capital Planning and Investment Control and the Financial Management Services organizations
are members of a working group structured to improve investment processes. The MV&S
Program Office continues to search for ways to improve these processes. For example, the
MITRE Corporation conducted lessons-learned sessions concerning the 2009 investment
planning processes. The participants in these sessions reported that the planning process had
improved from that in the prior year.
Another example of the collaborative alliances that were developed is demonstrated by the effort
to ensure that all proposed solutions are in compliance with the Enterprise Architecture and
support business processes. We determined that a collaborative system integration review was
being accomplished and included representatives from several organizations such as the Systems
Architecture and Engineering, Enterprise Architecture, Enterprise Data Management, and
Information Technology Security Engineering organizations.


                                                                                             Page 4
                     The Modernization Vision and Strategy Program Is Achieving
                                 Desired Results, but Risks Remain



The IRS emphasizes focused, more frequent delivery of information technology
project releases
The IRS continues to emphasize smaller, more frequent delivery of information technology
project releases. In our annual assessment of the Business Systems Modernization program for
Fiscal Year 2008,2 we concluded that the IRS and its contractors were performing better against
cost and schedule estimates as a result of breaking releases down into smaller, more manageable
pieces. While our annual assessment included an analysis of major investments in the Business
Systems Modernization program, we determined that the October 2007 MV&S Plan included
language relevant to all investment projects. Further, our review of meeting minutes and other
supporting documents determined that the IRS is following a policy of making more frequent
releases. This policy is the focus of continued emphasis within the IRS. As recently as
July 2008, the Enterprise Services organization–in an MV&S Program presentation–included
“definition of project scope in smaller incremental releases delivered more frequently” as one of
the Key Success Factors for Investment Proposal Development.
The Government Accountability Office Standards for Internal Control in the Federal
Government3 states that internal management control is 1) comprised of plans, methods, and
procedures used to meet departmental mission, goals, and objectives, and 2) supports
performance-based management. The Clinger-Cohen Act of 19964 addresses controls over
information technology investments and encourages streamlined, phased approaches for
information technology acquisitions. The IRS Enterprise Life Cycle methodology stresses focus
on delivering quality results that produce smaller benefits early and incrementally, throughout
the life of the project.
The MV&S Program has improved the information technology investment decision processes,
resulting in information technology projects that 1) better support the IRS goals of improving
customer service and enforcement, and 2) make better use of technology funds. However,
process improvements need to be implemented to ensure the continued improvement of future
investment proposal cost estimates and standardized reporting of investment decisions’
performance measures.




2
  Annual Assessment of the Business Systems Modernization Program (Reference Number 2008-20-129, dated
June 24, 2008).
3
  GAO/AIMD-00-21.3.1, dated November 1999.
4
  (Federal Acquisition Reform Act of 1996) (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                             Page 5
                     The Modernization Vision and Strategy Program Is Achieving
                                 Desired Results, but Risks Remain



The Process for Developing Total Cost Estimates Can Be Improved
The IRS is using internal guidance to estimate the total cost of ownership for information
technology investment projects. However, the guidance does not require comparison of actual
investment costs to the original estimates. Thus, these comparisons do not occur. We reviewed
the cost estimates for 4 of the 23 projects in the approved investment portfolio and determined
that the Estimation Program Office uses 1 of the approved estimation models for determining
total cost of ownership. The cost assumptions and the resulting cost estimates are validated by
employees with expertise in the area participating in the development of the Solution Concept
document, and Estimation Program Office personnel conduct indepth reviews of the Basis of
Estimate with the team working on the proposed investment. Based on the extent of the
estimation process and the Basis of Estimate documents, the cost estimates appear to be
reasonable. However, the reliability of the estimated total cost of ownership might be at risk
because the estimates for prior projects were not validated by comparing the estimates to the
actual costs.
Internal guidance, IRS Basis for Parametric Estimation Guidance, dated October 2007, provides
a basic requirement to update operations and maintenance estimates to actual costs for future
estimating purposes. However, it does not include specific provisions for comparisons of actual
costs to original estimates. Additionally, in July 2007, the Government Accountability Office
released an Exposure Draft, Cost Assessment Guide: Best Practices for Estimating and
Managing Program Costs,5 that provides an outline for successful cost estimating in a 12-step
estimation process. The process provides specific procedures to update cost estimates to actual
costs.
IRS management informed us that there is no documented process to track and compare actual
operations and maintenance costs to the original estimates. The systems modernization projects
(i.e., major projects) track actual costs compared to the Earned Value Management budget for
Capital Planning and Investment Control, but they do not consider original cost estimates.
Management further indicated that processes to document other projects (i.e., non-major
projects) focus on only development, modernization, and enhancement costs and schedules and
do not consider operations and maintenance.
By not comparing initial cost estimates to the actual project costs to validate the cost estimation
model, the IRS is increasing the risk that its future investment proposal cost estimates will not be
reliable.




5
    GAO 07-1134SP, dated July 2007.
                                                                                             Page 6
                     The Modernization Vision and Strategy Program Is Achieving
                                 Desired Results, but Risks Remain



Recommendation
Recommendation 1: The Chief Information Officer should ensure the reliability of the cost
estimation process by implementing procedures to compare actual project operations and
maintenance costs to initial estimates and revising the estimation process, if necessary.
        Management’s Response: The IRS agreed with this recommendation. It will
        implement procedures to compare actual project operations and maintenance costs to
        initial estimates and revise the estimation process when necessary.

Modernization Vision and Strategy Program Performance
Measurement Standards Need Further Development
MV&S Program performance measures are being collected, but there is no standardized
procedure for compiling and reporting these measures. Through review of documentation and
discussions with personnel, we could not determine whether performance measurement and
reporting were being thoroughly accomplished as required. Specifically, the October 2007
MV&S Plan does not include guidelines for measuring and reporting compliance. Also, when
we reviewed the performance measurement briefing slides and templates, it was unclear whether
the data collection and reporting cycle was accomplished. Additionally, personnel stated that
because the MV&S Program was in its early stages and was just gaining momentum, they are
now able to determine the types of data measurement and reporting that are needed.
The Government Performance and Results Act of 19936 requires agencies to set goals, measure
performance, and report on their accomplishments. A key tenet of the Act is that agencies will
develop 1) strategic plans–as well as annual performance plans that are linked to the strategic
plan–that establish the organizational goals and objectives, and 2) strategies for achieving these
goals. Additionally, agencies are required to establish performance measures and benchmarks to
identify gaps between actual and desired performance levels and mission outcomes.
The MV&S Program is a new program that began with the first MV&S Plan in October 2006.
Over the next 2 years, as the Program gained momentum, management stated that formalized
procedures were being consolidated based on integrated involvement and lessons learned.
Determining performance goals for information technology investments is a critical factor for
requesting funding in the budget formulation and submission process. Performance measures are
necessary to support the establishment of a sound strategic direction to ensure that decisive
information technology investment and acquisition decisions are accomplished through business
priority shifting and technological evolvement. The lack of MV&S Program performance


6
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 7
                 The Modernization Vision and Strategy Program Is Achieving
                             Desired Results, but Risks Remain



measures and reporting compliance could result in inefficient accomplishment of strategic
information technology acquisitions, objectives, and expectations.

Recommendation
Recommendation 2: The Chief Information Officer should include guidelines for
performance measurement and reporting in the updated MV&S Plan.
       Management’s Response: The IRS agreed with this recommendation and will
       update the MV&S Plan to reference performance measures and reporting. This update
       will be included in the Calendar Year 2009 annual publication.




                                                                                            Page 8
                       The Modernization Vision and Strategy Program Is Achieving
                                   Desired Results, but Risks Remain



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS MV&S Program is
achieving the desired results. To accomplish our objective, we:
I.         Determined whether the enterprise-wide investment portfolio approved by the MITS
           organization Enterprise Governance Committee1 supports modernizing front-line tax
           administration and the technical infrastructure.
           A. Conducted interviews with IRS personnel and requested and reviewed business
              organizations’ strategic plans.
           B. Interviewed IRS personnel and determined whether technical, functional, and
              integration reviews were conducted by the IRS to ensure that the system projects
              identified in the investment portfolio support the technical infrastructure.
II.        Determined whether the business organizations were involved in the investment strategy
           formulation process.
           A. Interviewed Portfolio Planning, Estimation, and Delivery Services Office
              management to determine the process for soliciting input from the business
              organizations for the budget formulation process.
           B. Reviewed documentation to determine whether data requests were sent to all business
              organizations.
           C. Reviewed the participants list for the investment strategy formulation meeting.
III.       Reviewed the coordination between the MV&S Program Office and other organizations
           responsible for portfolio management/governance, including the Capital Planning and
           Investment Control Office, Executive Steering Committees, and Financial Management
           Services organization.
           A. Interviewed MV&S Program Office and Capital Planning and Investment Control
              Office personnel to determine the roles and responsibilities regarding monitoring,
              tracking, and reporting the progress of the MV&S Program.
           B. Interviewed Financial Management Services organization personnel to determine the
              roles and responsibilities regarding budget formulation and adjustments within the
              MV&S Program.

1
    See Appendix IV for a glossary of terms.
                                                                                                Page 9
                       The Modernization Vision and Strategy Program Is Achieving
                                   Desired Results, but Risks Remain



           C. Reviewed the Executive Steering Committees’ meeting minutes to assess
              coordination with the MV&S Program Office.
IV.        Determined whether the IRS is frequently delivering smaller, more incremental releases.
           A. Interviewed MV&S Program Office personnel and reviewed the investment portfolio
              and Executive Steering Committees’ meeting minutes to determine whether projects
              are developed and frequently delivered via incremental releases.
           B. Reviewed project documentation for supporting costs and schedules that are being
              estimated and approved at the release level. We selected a judgmental sample of
              4 projects from the population of 23 projects in the approved investment portfolio.
              This list of 23 projects provided by the IRS included only projects for the MV&S
              Program for the Fiscal Year 2009 cycle. We obtained estimated costs and business
              area and respective owner information to determine whether projects were being
              estimated and approved at the release level. The four projects were judgmentally
              selected based on the projects’ titles, time period from development to operations and
              maintenance, total cost, and project business area. We used a judgmental sample
              because we did not plan to project the audit results.
V.         Determined whether the IRS is creating costing models that include investment,
           operations, and maintenance amounts.
           A. Interviewed personnel in the MV&S Program Office; the Portfolio Planning,
              Estimation, and Delivery Services Office; the Solution Concept Office; the
              Estimation Program Office; and the Capital Planning and Investment Control Office
              regarding the estimation process and models used to prepare project costs estimates.
           B. Reviewed the Government Accountability Office Assessing Risks and Returns: A
              Guide for Evaluating Federal Agencies’ Information Technology Investment
              Decision-making2 and the IRS operations and maintenance guidance.3
           C. Reviewed the supporting project cost documentation for the judgmental sample of
              four projects selected in Step IV.B.
VI.        Determined whether guidelines, processes, and procedures were in place for measuring
           and reporting results delivered by the MV&S Program.
           A. Interviewed MV&S Program Office personnel and reviewed the MV&S Plan to
              identify MV&S Program goals, objectives, outcomes, and performance measures to
              ensure program accomplishment.



2
    GAO/AIMD-10.1.13, dated February 1997.
3
    IRS Basis for Parametic Estimation Guidance, dated October 23, 2007.
                                                                                            Page 10
                 The Modernization Vision and Strategy Program Is Achieving
                             Desired Results, but Risks Remain



       B. Verified whether measures are linked to IRS long-term strategic goals as defined in
          the 2005-2009 IRS Strategic Plan.
       C. Interviewed MV&S Program Office personnel to determine whether performance
          measures are incorporated into the Business Performance Management System.
       D. Interviewed MV&S Program Office personnel to determine whether specific
          guidelines were developed for periodically measuring and reporting MV&S Program
          accomplishments.
VII.   Determined the validity of data. The IRS provided us with a report, identified as the
       project Basis of Estimate report, that contained support for each project’s total cost and
       timeline. We reviewed the information in each Basis of Estimate report for
       reasonableness. However, we did not conduct audit steps to verify the accuracy or
       completeness of the information because we did not use the information to make
       projections.




                                                                                           Page 11
                 The Modernization Vision and Strategy Program Is Achieving
                             Desired Results, but Risks Remain



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott A. Macfarlane, Director
Danny R. Verneuille, Audit Manager
Kimberly R. Parmley, Lead Auditor
Paul M. Mitchell, Senior Auditor
Wallace C. Sims, Senior Auditor
Charlene L. Elliston, Auditor




                                                                                      Page 12
                The Modernization Vision and Strategy Program Is Achieving
                            Desired Results, but Risks Remain



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Program Oversight Office OS:CIO:SM:PO




                                                                                Page 13
                    The Modernization Vision and Strategy Program Is Achieving
                                Desired Results, but Risks Remain



                                                                             Appendix IV

                              Glossary of Terms

Basis of Estimate                  A tool used to estimate all task order proposals. It
                                   includes specific sections that must be documented to
                                   justify the estimate proposal, such as work to be
                                   performed, scheduling estimates, and staffing summaries.
Business Performance Management    A System designed to support the IRS’ Strategic Planning
System                             and Budgeting and Performance Management processes.
                                   It supports executives and the senior leadership team,
                                   division managers, division planners, and analysts. The
                                   System also brings value to the organization by providing
                                   1) a centralized source of agency-wide planning and
                                   performance management data, 2) a “guided analysis tool”
                                   to facilitate planning and performance management at the
                                   enterprise, division, and program level, and 3) a
                                   “one-stop” source for information.
Earned Value Management            Involves measuring actual cost and work accomplished
                                   against the budgeted cost and planned work scheduled.
                                   Variances are analyzed for decision making.
Enterprise Architecture            A unifying overall design or structure for an enterprise.
                                   Enterprise architecture divides an enterprise into its
                                   component parts and relationships and provides the
                                   principles, constraints, and standards to help align
                                   business area development efforts in a common direction.
                                   An enterprise architecture ensures that subordinate
                                   architectures and business system components developed
                                   within particular business areas and multiple projects fit
                                   together into a consistent, integrated whole.




                                                                                      Page 14
                 The Modernization Vision and Strategy Program Is Achieving
                             Desired Results, but Risks Remain




Enterprise Governance Committee   The highest level recommending and decision-making
                                  body to oversee and enhance enterprise management of
                                  information systems and technology. It ensures that
                                  strategic modernization and information technology
                                  program investments, goals, and activities are aligned with
                                  and support 1) the business needs across the enterprise,
                                  and 2) the modernized vision of the IRS. It oversees
                                  investments, including validating major investment
                                  business requirements and ensuring that enabling
                                  technologies are defined, developed, and implemented.
Enterprise Life Cycle             A structured business systems development method that
                                  requires the preparation of specific work products during
                                  different phases of the development process.
Major Project (Investment)        Department of the Treasury specific criteria state that
                                  major information technology investments (or projects)
                                  have an annual cost equal to or greater than $5 million, or
                                  total lifecycle costs exceeding $50 million.
MITRE Corporation                 Provides the IRS with independent, expert, and objective
                                  advice and guidance on strategic, technical, and program
                                  management issues.
Non-Major Project (Investment)    Any initiative or investment not meeting the definition of
                                  a major project.
Release                           A specific edition of software.
Solution Concept Document         Provides the characteristics of the ability of the system.




                                                                                       Page 15
    The Modernization Vision and Strategy Program Is Achieving
                Desired Results, but Risks Remain



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 16
The Modernization Vision and Strategy Program Is Achieving
            Desired Results, but Risks Remain




                                                      Page 17
